•ri2

lift? ns

No.

& *

-v ' .u

IN THE
SUPREME COURT OF THE UNITED STATES

JOSE JOEL AGUILAR

— PETITIONER

(Your Name)
vs.
PHH MORTGAGE and OCWEN

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

United States Court of Appeals For the Ninth Circuit Case No. 20-60017
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

JOSE JOEL AGUILAR
(Your Name)
1320-1324 WEST 25TH STREET
(Address)
LOS ANGELES, CA 90007
(City, State, Zip Code)
310-488-3173

RECEIVED I
FEB 1 6 2021
OFFICE OF THE CLERK
Supreme COURT, u.sj ,

(Phone Number)

QUESTION(S) PRESENTED

Issues involved in this case scenario has to do with Private Mortgage insurance Fraud from the mention
defendants in this instant case by Plaintiff. The issues will be more described on the Support state­
ments by plaintiff. Defendants placed Private Mortgage Insurance on plaintiffs loan to collect insurance
proceeeding from Private Mortgage Insurance. Plaintiff claims that the Original Trust Deed and Note witl
the Original Lender INDY MAC FEDERAL CHARTERED SAVINGS BANK was paid by the Private Mort­
gage Insurance placed originally on the loan as a Funding Requirement as noted on the Original Deed c
Trust with INDY MAC BANK. Ocwen Loan Servicing, LLC calims ownership of Plaintiffs Loan Account
that was paid off by the Private Mortgage Insurance attached to the Original note. Ocwen tried to collect
mortgage payments from Plaintiff without success. Ocwen Loan Servicing, LLC placed Private Mortgage
Insuarance on Plaintiff paid loan account several times since 2010 and collected insurance proceedings
several times Then tansferred, assigned, or sold the loan to PHH Mortgage Services, Inc. who in turn
commenced to practice the same illegal lending activities. I was told by Ocwen Loan Servicing, LLC that
PHH Mortgage Services, Inc., was another branch of Ocwen Loan Servicing, LLC
Type text here

LIST OF PARTIES

[ xl All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES

UNITEDt§fkiTE§ SUPREME COURT CASE NUMBER 20-6780

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE
REASONS FOR GRANTING THE WRIT
CONCLUSION

INDEX TO APPENDICES
APPENDIX A
APPENDIX B
APPENDIX C
APPENDIX D
APPENDIX E
APPENDIX F

SEE ATTACHED

TABLE OF AUTHORITIES CITED
CASES

NONE

STATUTES AND RULES

OTHER

PAGE NUMBER

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.

to

The opinion of the United States district court appears at Appendix
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[X] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix A___ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[X3 is unpublished.
The opinion of the _
appears at Appendix

court
to the petition and is

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

to

JURISDICTION

[X] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was November 12, 2020
[ ] No petition for rehearing was timely filed in my case.
[x] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: November 4,2020
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including NONE
(date) on
(date)
in Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[X] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
_____________________ , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
NONE

STATEMENT OF THE CASE

Appellant's case is based on the belief that the defendants in this instanfcasetare operating fraudlently
Lending Practices in regards to Private Mortgage Insurance Policies. There is Hazzard Insurance Policies
fpor protection against fire on the improvements and defendants allegedly placed Private Mortgage Insu­
rance Policies to fraudlently collect proceedings on an Appellant's Loan Account which has already been
paid by another Private Mortgage Insurance Policy, creating an llegal racketeering in the lending industry
which affects the public interest.

REASONS FOR GRANTING THE PETITION
I believe in the American Judicial System and for what it has been made for the American Peopk
Therefore, justice will be served. I feel that I have not been treated justly and fairly by the lower
courts. I do not lunderstand all the confusion created in the legal procedure while my case has
under review for the issues that we have raised. Those are important issues that need to be look
out by competent authorities and those issues that we have argued and have been ignored by th
lower courts have important legal effect on the general public, issues that have not been seen
before in the lending industries and are being abused by the defendants herein mentioned in this
complaint. The issues presented in the lower courts have to do with the mentioned lending institi
tions in this instant Petition for writ of Certiorati has to do with illegally collecting Private Mortgag
Insurance

CONCLUSION

The petition for a writ of certiorari should be granted. For the reasons cited on the Statements of the
case above and because of a matter of law
that concerns the general public.

Respectfully submitted,

U

Date: 02/06/2021

